Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  STATE USE OF SPECIAL NEEDS

     ADOPTION FUNDS FOR

     NONRECURRING COSTS





                S6RV1QS
            d        %%
         $.4
        #
        -J
        s
        %
          ‘%
           +’
             >
                $
            4~difa
                          Jm      GIBBS BROWN
                          Inspector    General

                               AUGUST 1995
                              OEI-06-94-O0560
              EXECUTIVE                              SUMMARY

PURPOSE

This inspection describes states’ experiences   inutilizing   funds available for Special Needs
Adoption (SNA) nonrecurring costs.

BACKGROUND

The Foster Care and Adoption Assistance programs, authorized under Title IV-E of the

Social Security Act, provide care for children who need placement outside their homes.

Assistance is available for children with special needs who cannot be returned to their

homes and who have had difficulties being adopted. Adopting parents of special needs

children may receive monthly assistance payments which vary among states.


Adopting parents may also receive reimbursement for one-time nonrecurring costs of

special needs adoptions. These nonrecurring costs include adoption fees, court costs,

attorney fees and other expenses which are directly related to the legal adoption of special

needs children. States must report their use of SNA nonrecurring funds cm Federal Form

IV-E-12, but are not required to separate these expenses from normal administrative costs.

This study was requested by the Administration for Children and Families (ACF) out of a

concern that state adoption agencies may not be fully utilizing the nonrecurring costs

provision of the Social Security Act.


This examination of the use of nonrecurring costs in facilitating special needs adoptions

was based on mail surveys completed by state officials knowledgeable about their State’s

adoption practices. To supplement our surveys and to clarify key issues, we conducted

telephone interviews with a number of the state respondents.     However, we did not talk to

adoption agent y staff, case workers, or adopting parents. Forty-two state respondents

returned surveys, although not all responded to every question. We also reviewed

relevant policy documents and met with officials in the ACF.


FINDINGS

Most States Utilize Speciizl Needs Adoption Nonrecum”ng Funds, however this is Not
Always Rejlected on their Federal Repoti”ng Forms.

Nonrecurring SNA cost reimbursements were not always captured on Form IV-E-12.
Most discrepancies in the amount of reimbursements recorded and the amount actually
spent were due to state payment systems not separating SNA nonrecurring costs from
normal administrative costs.

At least 17 percent more funds were spent than were reported as SNA nonrecurring costs.
An additional $924,185 was spent in FY1994 that was not originally reported on the Form
IV-E- 12 reports as SNA nonrecurring costs.


                                                i
Four states reported not using Federal matching funds for special needs adoption
nonrecurring costs.

Due to changes in the new reporting system, there will no longer be any Federal
accounting of SNA nonrecurring costs beginning in FY 1996.

Most Stales Authorize Reimbumements     for Nonrecum”ng Costs up to the Federal
Maximum of $2,000 per Adoption.

When states set reimbursement levels below the $2000 limit this was most often due to
state budget constraints or because the actual costs per adoptive family were typically
much lower. In many states, expenses such as court costs and attorney fees were covered
through other state programs.

Most States Were Not Proactive in Informing          Parents that their iVonrecum”ng SNA
Costs Could be Reimbursed.

Outreach strategies were primarily informal,    with few states evaluating the effectiveness
of their outreach efforts.

State Respondents Judged Reimbursement         of Nonrecum”ng     Costs Helpful in Facilitti”ng
Special Needs Adoptions.

Respondents believed that reimbursement eliminated some financial barriers which may
have delayed or prohibited adoptions, thereby expanding the pool of adoptive parents to
include more lower and middle income families.

Respondents Suggested Allowing a Tm Credit for Adoptive Families or Paying Service
Providers Directly to Improve the Efficiency of Nonrecum”ng Costs Disbursement.




                                                ii
                           INTRODUCTION

PURPOSE

This inspection describes states’ experiences   inutilizing   funds available for Special Needs
Adoption (SNA) nonrecurring costs.

BACKGROUND

The Foster Care and Adoption Assistance programs, authorized under Title IV-E of the

Social Security Act, provide care for children who need placement outside their homes.

The purpose of this legislation was to enhance the foster care program, strengthen child

welfare services and encourage the adoption of children with special needs. A child is

declared special needs when the state determines that the child cannot be returned to the

parents’ home and that he/she also possesses a factor or condition (such as his/her ethnic

background, age, physical or mental disability, or membership in a sibling group) that

may cause the child to have difficulty being adopted.


Special needs adoption assistance comes in three forms: adopting parents of special needs

children may receive medical benefits, monthly maintenance payments which vary among

states, and they may also receive reimbursement for one-time adoption costs. These

nonrecurring costs include adoption fees, court costs, attorney fees and other expenses

which are directly related to the legal adoption of special needs children. Examples of

other approved costs are health and psychological examinations, placement supervision

services, and the costs of the child’s or family’s transportation, food and lodging

necessary to complete the adoption process.


Adoptive families were formerly allowed an itemized tax deduction of up to $1,500 to aid

in the payment of nonrecurring costs. This practice was criticized because it was viewed

as discriminating against families who did not itemize their tax deductions. The Tax

Reform Act of 1986 repealed the tax deduction by amending Title IV-E of the Social

Security Act. The new ruling requires states to reimburse adoptive parents for

nonrecurring SNA costs and provides 50 percent Federal matching funds for a total outlay

of no more than $2,000 per adoptive placement. Implementation of this new policy began

in 1988 with the publication of a Notice of Proposed Rulemaking (NPRM). An important

component of this ruling is the requirement that a reasonable, but unsuccessful, effort first

be made to place the child without providing any adoption assistance.


Under the new policy of reimbursement, adoptive families are required to submit receipts

for costs incurred upon finalization of the adoption and are then compensated by the state

or local agency. Although most use this reimbursement method, a few states pay

providers such as attorneys and social workers directly when possible. States are then

required to report their use of special needs adoption nonrecurring funds on Federal Form

IV-E- 12 which tracks money spent on Foster Care and Adoption Assistance programs.

Although there is a line on the Form IV-E-12 speciilcally for recording the amount spent



                                                1
on SNA nonrecurring costs, states are not required to declare this amount separately and
may group these expenditures with other administrative adoption costs. This study was
requested by the Administration for Children and Families (ACF) out of a concern that
state adoption agencies may not be fully utilizing the nonrecurring costs provisions of the
Social Security Act.

METHODOLOGY

This examination of the use of nonrecurring costs in facilitating special needs adoptions
consisted of mail surveys completed by state officials knowledgeable about their state’s
adoption practices (see Appendix A). To supplement our surveys and to clarify key
issues, we conducted telephone interviews with a number of the state respondents.
However, we did not talk to adoption agency staff, case workers, or adopting parents.
Forty-two states returned surveys, although not all responded to every question. Prior to
the survey analysis, we reviewed relevant policy documents and met with officials in the
ACF. We conducted our study in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            2�
                                 FINDINGS


MOST STATES UTILIZE SPECIAL NEEDS ADOPTION NONRECURRING
FUNDS, HOWEVER THIS IS NOT ALWAYS REFLECTED ON THEIR FEDERAL
REPORTING FORMS.

Nonrecum”ng    SNA costs reimbumements     were not always captured on Fozm IV-E-12.

Of the 14 states with ~ recorded nonrecurring SNA expenditures in FY1994 on the Form
IV-E- 12, five states actually did use funds (see Appendix B). 1 Discrepancies in the
reported and actual expenditures were due to state payment systems not separating SNA
nonrecurring costs from normal administrative adoption expenditures.

At least 17 percent more funds were spent than were repotted as SNA nonrecum”ng
costs.

An additional $924,185 was spent in FY1994 that was not originally reported on the Form
IV-E- 12 reports as SNA nonrecurring costs. Based on our survey report, at least $6.4
million was spent on nonrecurring costs in FY 1994 (see Appendix B).

Four states repotied not using Federal matching finds    for SNA nonrecum”ng costs.

Reasons for not using nonrecurring SNA funds in Fiscal year 1994 (FY1994) centered on
a lack of need. These states covered all or most adoption costs such as legal fees and
home study expenses through the use of state services, requiring little to no out-of-pocket
expenditure by adoptive families. In the case of one state, the amount requested by
families was so small that the state adoption officials decided that receiving Federal
matching funds was not worth completing the necessary paperwork.

Due to changes in the new repoti”ng system, there will no longer be any Federal
accounting of SNA nonrecum”ng costs be~”nning in FY1996.

Form IV-E-12, the current tool for tracking adoption costs, will be replaced in FY1996
with a new reporting form entitled 431. The new form does not even ask states to
distinguish nonrecurring adoption reimbursements from normal administrative costs.
According to officials in the ACF, this change was made in order to reduce the
administrative burden on states.

The Adoption and Foster Care and Analysis Reporting System (AFCARS) collects data on
adoptions, but does not request that states list nonrecurring costs separately. States are
required to report through AFCARS the number of adoptions where the state agency had
any involvement.    This involvement could be the reimbursement of nonrecurring costs,
but could also be foster care, monthly maintenance payments or other adoption assistance
services. Therefore, there will be no Federal method for capturing state use of funds for
nonrecurring adoption costs beginning in FY 1996.
MOST STATES AUTHORIZE REIMBURSEMENTS   FOR NONRECURRING
COSTS UP TO THE FEDERAL MAXIMUM OF $2,000 PER ADOPTION.

Twenty-six states reimbursed parents at the maximally allowed $2000 reimbursement

limit, while 15 states reimbursed at levels ranging from $400 to $1,500

(see Appendix C) .2 States reimbursed at levels below the $2000 limit for the following

reasons: 1) costs were already covered in other ways, e.g., use of state-appointed

attorneys; 2) states had mandated lower maximums due to budget constraints; and 3)

adoptive families often requested less than the limit.


MOST STATES WERE NOT PROACTIVE IN INFORMING PARENTS                             THAT
THEIR NONRECURRING SNA COSTS COULD BE REIMBURSED.

Outreach strategies were primarily   informal.

Although states used a variety of methods to make parents aware of SNA funds, informal
w oral-of-mouth by caseworkers was the most common. As stated earlier, Federal
regulation dictates that an effort frost be made by adoption agencies to place special needs
children without providing any financial assistance. Therefore most states do not actively
solicit use of the nonrecurring funds. Outreach methods seem to be mostly ad hoc and
unstructured.

Most agencies informed adoptive parents about costs reimbursement during the interview
or home study, either verbally or with brochures (see Appendix C). Some states provided
training for private adoption agencies and for individual adoptive families, while others
relied on the court system, parent support groups or adoption exchange organizations to
publicize available fimds. These supplementary groups were most often used as
reinforcements rather than as primary sources of information.    Although nearly all states
sought to inform parents of nonrecurring funds, only one used the existence of funds as a
tool for recruiting parents.

Few stales evaluated the effectiveness   of their outreach effotis.

Only thirteen states sought to determine the effectiveness of their procedures for informing
parents of nonrecurring SNA costs reimbursement.       These evaluations appeared to be
mostly non-systematic.   Examples included: 1) occasional follow-up interviews with
adoptive parents; 2) discussions with caseworkers; and 3) surveys sent to private adoption
agencies.

STATE RESPONDENTS JUDGED REIMBURSEMENT    OF NONRECURRING
COSTS HELPFUL IN FACILITATING SPECIAL NEEDS ADOPTIONS.

A large majority of state respondents considered reimbursement of nonrecurring SNA
costs to be helpful in facilitating special needs adoptions. Financial barriers were thought
to delay and even prohibit adoptions, particularly when families were required to pay legal
fees and court costs. Many state respondents argued that the families most likely to adopt


                                              4

were often middle to lower income households whose limited resources were needed to
meet other expenses directly related to the needs of the child, such as home
modifications. 3

STATE ADOPTION STAFF RECOMMENDED  POLICY CHANGES TO IMPROVE
THE EFFICIENCY OF NONRECURRING SNA COSTS DISBURSEMENT.

The most common suggestion given by state respondents for improving the disbursement
of nonrecurring SNA funds was to create a system which grants tax credits to adoptive
families. Unlike the previous itemized tax deduction, a tax credit could be easily used by
all adoptive families. They cited decreased administrative costs and reduced paperwork as
incentives to implement a tax credit and claimed the current reimbursement method
created an administrative burden on their agencies and on families.

Respondents claimed that in many cases adoptive families had difficulty paying for costs
in advance and then waiting to be reimbursed.      others recommended encouraging states to
pay providers directly to avoid families’ initial financial outlays. In addition to the issue
of payment methods, some respondents felt that the Federal definition of acceptable
nonrecurring expenses should be broadened to include home modifications made by
adoptive parents to accommodate the special needs child.




                                            5�
                               EN DNOTES


1.	   Of the nine remaining states not separating nonrecurring SNA expenditures for
      FY1994 on their IV-E-12 form, four states were non-respondents, four states did
      not utilize funds, and one state respondent did not have fiscal information
      available.

2.    The one remaining state described its reimbursements   as “usual and customary. ”

3     Under existing NPRM regulation, the one-time costs for alteration of adoptive
      parents’ homes or properties are @ expenses reimbursable as a nonrecurring costs
      expenditure.




                                          6�
                                                                       APPENDIX                                     A

                                             STATE SURVEY QUESTIONS                                     FROM QUESTIONNAIRE

STATE:

PERSONCOMPLETINGFORM:

TELEPHONE
        NUMBER: (      ) —-



1.HOW much State and Federal funds did you spend on nonrecuming                costs for special needs adoptions (SNA) in fiscal year 1994?
I                                               I                                           I                                        I                                               1
                   1st Qtr                                        2nd Qtr                                     3rd Qtr                                        4tb Qtr

        State                   Federal                  State                 Federal                  State                Federal               State               Federal

    $                    $                          $                   $                       $                       $                    $                     $

2. If the money amounts you gave in question 1 above are different from the combined Federal and State amounts we gave you in our cover memo, please explain the
discrepancy,   (For example, if we show zero amounts in our cover memo, but you did spend monies for nonrecurring SNA costs, explain why the amounts spent are
not reflected int he Form WE-12 reports.)




3 If zero amounts are accurately shown either in the figures we gave you in our cover page, or in the figures you gave us in question 1 above, please explain why no
funds are being used for nonrecuming SNA costs.




4.What is the maximum amount you will pay for SNA nonrecurring costs per child? $
If it is not $2,000 ($1 ,000 State and $1,000 Federal maximum), why is it set at this rate’!




5 .What process (mechanism)       do you use to claim nonrecurring      SNA costs?       (For example, do you claim them as SNA costs or normal administrative         costs’?)




6, What process do you use to reimburse parents and how do you account for these amounts’? (For example, are the parents paid by the State or local agencies and
what documentation is required?)




7. Is the use of nonrecurring    costs reimbursement      helpful in getting SNA children adopted?        Yes —             No —
Please explain you answer.




8 Are there barriera to the use of nonrecurring         costs reimbursement?       Yes ——          No             If yes, what are they?




9 How are SNA adoptive parents made aware of nonrecurring               costs reimbursement?

Do you evaluate the effectiveness         of your procedures?    Yea            No _          If yes, how?      What have the resuka been?




10. Other than additional funding, what would you recommend to make reimbursement                   of nonrecurring     costs of S NA adoptions more effective at either the national or
State level?




                                                                                              1

                         APPENDIX                     B

       FEDERAL AND STATE FISCAL YEAR 1994 EXPENDITURES
     FOR NONRECURRING  COSTS FOR SPECIAL NEEDS ADOPTIONS

         Total State &    Total State &          Explanation of Differences Between
             Federal         Federal              the Reported Information on the
          Expenditure     Expenditure          IV-E-12 Form and Survey Information.
           for FY1994      for FY1994
          Reported on      Reported on
         IV-E-12 Form        Survey

AL          $22,751          $22,751

AK          $81,198         $107,081          An additional $25,883 paid as State-only
                                              SNA for children outside the Federal
                                              definition of Special Needs.

AZ          $58,893          $58,893

AR          $5,772           $5,773

CA             o            $284,824          Expenditures were made, but claimed as
                                              administrative costs on the IV-E-12 form.

co             o            Unknown           Expenditures were made, but claimed as
                                              administrative costs on the IV-E-12 form.
                                              However, the exact amount spent on
                                              nonrecurring costs is unknown.

CT           $4,023            NR             Non-respondent

DE             o                0             All special needs adoptions are done directiy
                                              by the state so there are no costs to the
                                              adoptive family.

DC             o               NR             Non-respondent

FL          $55,864          $55,864

GA         $163,459         $163,454

HI             o                0             Some expenditures were made out of state
                                              funds, but not claimed for Federal
                                              reimbursement t.

ID          $37,786          $37,806

IL             o               NR             Survey completed, however fiscal
                                              information not submitted

IN         $171,828            NR             Non-respondent

1A          $87,179          $87,179



                                       B-1

     Total State &   Total State &           Explanation of Differences Between
        Federal        Federal                the Reported Information on the
      Expenditure    Expenditure           IV-E-12 Form and Survey Information.
      for FYl 994    for FY1994
     Reported on     Reported on
     IV-E-12 Form       Survey

KS     $161,458        $161,458           The information on the IV-E-12 form
                                          originally was $297,654.   However, this
                                          amount included all adoption assistance
                                          administration expenditures instead of only
                                          nonrecurring expenditures.

KY     $30,644         $30,646

LA     $131,720        $131,720

ME         n               o              System for reimbursing   parents not in
                                          place yet.

MD     .$32,252           NR              Non-respondent

MA         o            $5,000            Expenditures were made, but claimed as
                                          administrative costs on the IV-E-form

MI         o              NR              Non-respondent

MN     $195,870        $195,870

MS       $974          $18,964            Nonrecurring costs not cIaimed to Federal
                                          government due to reporting problem with
                                          computer system. The problem has since
                                          been resolved.

MO     $327,871        $327,921

MT      $7,742            NR              Non-respondent

NB      $37,797        $37,797

Nv     $18,196         $18,196

NH         o           $30,017            Expenditures were made, but claimed as
                                          administrative costs on the IV-E-12 form.

NJ         o           $553,122           Delay in the completion of the Cost
                                          Allocation Plan for FY 1994.

NM      $44,723        $44,723            The information on the IV-E-12 form
                                          originally was $22,360. However, this
                                          number was later corrected.

NY    $1,666,634      $1,666,634

NC      $38,866           NR              Non-respondent




                                   B-2

                   Total State &         Total State &            Explanation of Differences Between
                       Federal              Federal                the Reported Information on the
                    Expenditure           Expenditure           IV-E-12 Form and Survey Information.
                     for FY1994           for FY1994
                    Reported on           Reported on
                   IV-E-12 Form              Survey

    ND                    o                 $7,760             Payment and claims system has no method
                                                               of separating amount paid for nonrecurring
                                                               costs. Calculation made on survey required
                                                               manual case reviews.

    OH                $547.035              $547,036

    OK                $103,753             $103,753

    OR                $100,29’0             $100,830           Transposed numbers during 4th quarter,    so
                                                               $540 was inadvertently not re~orted.

    PA                $117,687             $117,687

    RI                    o                     0              All special needs adoptions are done directly
                                                               by the agency so there are no costs to the
                                                               adoptive family.

    Sc               $179,212              $179,212

    SD                $50,856               $50,856

    TN                 $82,144              $82,144

    TX                $519,564             $518,564

    UT                $54,536               $54,536

    VT                $24,557               $24,556

    VA                $27,091                  NR              Survey completed, however fiscal
                                                               information not submitted

    WA                $258,748              $258,748

    Wv                 $1,255                  NR              Non-respondent

    WI                 $70,394              $70,394

    WY                    0                    NR              Non-respondent

    Total            $5,520,622            $6,161,760          $924,195   =�     Amount of additional
                                           + 283,0571                            expenditure that
                                                                                 was not captured on
                                           $6,444,817                            Form IV-E-12 as SNA
                                                                                 nonrecurring costs.
R           State did not submit information
            Represents the total amount claimed by states on the IV-E-12 form not responding    to our survey.



                                                        B-3

                    APPENDIX                     C

    COMPARISON OF STATE POLICIES & PRACTICES REGARDING
USE OF SPECIAL NEEDS ADOPTION FUNDS FOR NONRECURRING   COSTS

       Maximum           State          Type of      Outreach Conducted by
        Amount       Reimbursed     Reimbursement       State Regarding
       Reimbursed    Parents for        Process            Availability
        Per Child   Nonrecurring     (State/Local)   of Nonrecurring Costs
                      Costs in                           Reimbursement
                        FY1994

AL       $1,000          d               State         workers    inform parents

AK       $2,000           J              State         workers inform parents

AZ       $2,000           J              State       training,   in policy material

AR       $1,500           d              State         workers    inform parents

CA       $400             J              Local         workers    inform parents

co       $800            No              Local       workers	 inform parents,      in
                                                              brochure

CT        NR             NR               NR                       NR

DE       $2,000          No                *                        *

DC        NR             NR               NR                       NR

FL       $2,000          J               State        workers inform parents
                                                          during training

GA       $2,000          d               Local         workers inform parents
                                                           during training

HI       $2,000          No              State        workers inform parents,
                                                          on application

ID       $2,000           J              State       workers & court attorneys
                                                          inform parents

IL       $1,500          NR              State         workers inform parents

IN         NR            NR               NR                       NR

IA       usual            J              State         workers    inform parents
       Customary

Ks       $2,000           J              Local       workers & private adoption
                                                      agencies inform parents




                                   c-1
     Maximum          State             Type of        Outreach Conducted by
      Amount      Reimbursed        Reimbursement          State Regarding
     Reimbursed    Parents for          Process               Availability
      Per Child   Nonrecurring       (State/Local)      of Nonrecurring Costs
                    Costs in                                Reimbursement
                     FY1994

KY     $1,000           J                State        in handbook, county court
                                                                clerks

LA     $1,000           J                State          workers inform parents

ME     $2,000          No                  *            workers inform parents

MD       NR            NR                 NR                        NR

MA      $400            J                State         workers inform parents,
                                                     in adoptive parent newsletter

MI       NR            NR                 NR                         NR

MN     $2,000           J                State        workers	 inform parents,       in
                                                               brochure

MS     $1,000           J                State          workers    inform parents
                   (State only)

MO     $2,000           d                State        workers     inform parents,    in
                                                                     flyer

MT       NR            NR                 NR                         NR

NB     $1,500           J                 State           adoption agencies &
                                                         attorneys made aware

NV     $2,000           J                 State         workers inform parents,
                                                     in booklets & part of training

NH     $2,000           d                 State          State agency informs
                                                           parents in writirg

NJ     $2,000           d                 State      written notification to parents

NM     $2,000           J                 State         workers    inform parents

NY     $2,000           /                Local           local agency training,
                                                        workers inform parents

NC       NR            NR                 NR                         NR

ND     $2,000           d                Local          workers     inform parents

OH     $2,000           d                Local          booklet given to parents

OK     $2,000           J                 State       training & information     given
                                                                to courts



                                  c-2
